      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                          Washington, D.C. 20201




October 17, 2011

TO:            Francis S. Collins, M.D., Ph.D.
               Director
               National Institutes of Health


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Appropriations Funding for Eunice Kennedy Shriver National Institute of Child
               Health and Human Development Contract HHSN275-03-3345 With Westat, Inc.
               (A-03-10-03106)


The attached final report provides the results of our review of appropriations funding for
National Institute of Child Health and Human Development contract HHSN275-03-3345
with Westat, Inc.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Kay L. Daly, Assistant Inspector General for Audit Services, at
(202) 619-1157 or through email at Kay.Daly@oig.hhs.gov. We look forward to receiving your
final management decision within 6 months. Please refer to report number A-03-10-03106 in all
correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  APPROPRIATIONS FUNDING FOR
   EUNICE KENNEDY SHRIVER
    NATIONAL INSTITUTE OF
      CHILD HEALTH AND
     HUMAN DEVELOPMENT
  CONTRACT HHSN275-03-3345
      With Westat, Inc.



                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-03-10-03106
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Eunice Kennedy Shriver National Institute of Child Health and Human Development
(NICHD) is 1 of 27 institutes and centers of the National Institutes of Health (NIH), an agency of
the Department of Health and Human Services (HHS). The NIH Office of the Director sets
policy and plans, manages, and coordinates NIH-wide programs and activities. Like all Federal
agencies, NICHD is required to comply with appropriations statutes when acquiring supplies and
services with appropriated funds.

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). Federal statutes also limit the time during which an appropriation is available. A
fiscal year appropriation may be obligated only to meet a legitimate, or bona fide, need arising
in, or in some cases arising prior to but continuing to exist in, the appropriation’s period of
availability (31 U.S.C. § 1502(a)). Congress determines the amount of funding available to an
agency for the purchase of goods and services by enacting appropriations. The Antideficiency
Act prohibits an agency from obligating or expending those funds in advance of or in excess of
an appropriation unless specifically authorized by law (31 U.S.C. § 1341(a)(1)).

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” When
services are continuing and recurring, they are severable, and the agency may fund the contract
with fiscal year appropriations from the year in which services are provided, unless otherwise
authorized by statute. When services are for a single outcome or effort, they are nonseverable
and therefore chargeable to the fiscal year in which the contract is awarded, even though its
performance may extend into subsequent fiscal years.

On November 1, 2002, NICHD awarded contract HHSN275-03-3345 (the Contract), totaling
$164.7 million, to Westat, Inc. (Westat), in Rockville, Maryland. The Contract required Westat
to establish an international pediatric and perinatal HIV studies network-coordinating center to
maintain, coordinate, and manage a network of clinical research centers. We determined that,
although the Contract statement of work may contain severable elements, on balance the
Contract was nonseverable because it provided for a single outcome (a comprehensive report and
the related overall study data) at the conclusion of the 5-year contract. NICHD subsequently
made five modifications to the Contract that increased the total Contract amount by
$16.2 million to $180.9 million.

From November 2008 through February 2009, an HHS internal review group called the “Tiger
Team” assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the

                                                 i
21 NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in
which contract funding was not consistent with the current HHS Acquisition Regulation or
appropriations law. The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE

Our objective was to determine whether NICHD funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.

SUMMARY OF FINDINGS

NICHD funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NICHD did not comply with the time and amount requirements specified in
the statutes. NICHD initially funded only $31.0 million of the $164.7 million contract obligation
with fiscal year 2003 appropriations. NICHD obligated a total of $133.7 million in violation of
the bona fide needs rule: $33.2 million of fiscal year 2004 appropriated funds, $33.3 million of
fiscal year 2005 appropriated funds, $33.5 million of fiscal year 2006 appropriated funds, and
$33.7 million of fiscal year 2007 appropriated funds. Because the Contract was for nonseverable
services, NICHD was required to record the full amount of the Contract using fiscal year 2003
appropriated funds. By not doing so, NICHD potentially violated the Antideficiency Act.

To remedy the bona fide needs rule violation, NICHD will need to deobligate the fiscal year
2004 through 2007 appropriations and would have needed to obligate $133.7 million
($164.7 million less $31.0 million) using fiscal year 2003 appropriations. However, because
2003 funds are no longer available to record the obligation, NICHD may be able to fund the
deficiency using $133.7 million of current fiscal year appropriations provided the conditions of
31 U.S.C. § 1553 are met. If NICHD does not have $133.7 million of current fiscal year
appropriations or the amount exceeds the lesser of 1 percent of the current appropriation or the
unexpended balance of the closed appropriation, NICHD will violate the Antideficiency Act.

NICHD correctly funded five Contract modifications for additional work totaling $16.2 million
using appropriated funds available at the time it awarded the modifications.

RECOMMENDATIONS

We recommend that NICHD:

    •   deobligate $33.2 million of fiscal year 2004 funds and return the canceled funds to the
        Treasury;

    •   deobligate $33.3 million of fiscal year 2005 funds and return the canceled funds to the
        Treasury;

    •   deobligate $33.5 million of fiscal year 2006 funds;

    •   deobligate $33.7 million of fiscal year 2007 funds;


                                                ii
    •   record the remaining $133.7 million of the $164.7 million contract obligation against
        current fiscal year appropriations;

    •   report an Antideficiency Act violation if sufficient current year appropriations are not
        available; and

    •   report, in accordance with 31 U.S.C. § 1554, the adjustment to the Contract using current
        fiscal year appropriations.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH agreed that a bona fide needs violation had
occurred and admitted violating the Antideficiency Act. NIH did not agree with our
characterization of the Contract as a nonseverable service contract or the nature of the bona fide
needs violation and, therefore, did not concur with the audit recommendation to correct the
funding of the Contract.

Specifically, NIH stated that the Contract was for severable services and that it violated the bona
fide needs rule because it obligated the Government to acquire severable services in advance of
appropriations that could be used for such services. However, NIH said that HHS had reported
the Antideficiency Act violation as required by 31 U.S.C. § 1351 and that the Contract had been
completed and was in the process of being administratively closed. NIH did not say that it had
made or planned to make any corrections to the Contract funding.

NIH’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

While the statement of work may contain severable elements, we maintain that, on balance, the
Contract is nonseverable. We determined the Contract was nonseverable because it was focused
on an end product—the comprehensive report and the related item, “data tapes,” containing the
study data. Further, NIH stated that the Contract was for severable services but admitted that it
did not properly fund the obligation under any of the allowable funding methods for severable
services contracts.

NIH admitted violating the bona fide needs rule and the Antideficiency Act and stated that HHS
has reported an Antideficiency Act violation. However, NIH failed to identify any actions, taken
or planned, to correct the improper funding of the Contract as either a nonseverable or severable
services contract. Until NIH takes corrective action, HHS cannot report the correct amount of its
Antideficiency Act violation.

We have modified our recommendations to identify by fiscal year the adjustments necessary to
properly fund a nonseverable service contract. As noted in the modified recommendations,
NICHD must record the $133.7 million against current fiscal year funds (provided the amount
does not exceed the lesser of 1 percent of the current appropriation or the unexpended balance of
the closed appropriation) and must report the adjustment pursuant to 31 U.S.C. § 1554.



                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Federal Appropriations Statutes ............................................................................ 1
              National Institute of Child Health and Human Development Contract Award .... 2
              Departmental Review of National Institutes of Health Contracts ........................ 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 3
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .............................................................................3

          FUNDING VIOLATIONS ............................................................................................... 4
               Bona Fide Needs Rule Violation .......................................................................... 4
               Potential Antideficiency Act Violation................................................................. 4

          CAUSES OF FUNDING VIOLATIONS ......................................................................... 5

          RECOMMENDATIONS .................................................................................................. 5

          NATIONAL INSTITUTES OF HEALTH COMMENTS ...............................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................6

APPENDIX

          NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

The Eunice Kennedy Shriver National Institute of Child Health and Human Development
(NICHD) is 1 of 27 institutes and centers of the National Institutes of Health (NIH), an agency of
the Department of Health and Human Services (HHS). The NIH Office of the Director sets
policy and plans, manages, and coordinates NIH-wide programs and activities. Like all Federal
agencies, NICHD is required to comply with appropriations statutes when acquiring supplies and
services with appropriated funds.

Federal Appropriations Statutes

An agency may obligate appropriations for goods and services when (1) the purpose of the
obligation or expenditure is authorized, (2) the obligation occurs within the time limits for which
the appropriation is available, and (3) the obligation and expenditure are within the amounts
provided by Congress.

Federal statutes limit the purpose for which an agency may use appropriations to “the objects for
which the appropriations were made except as otherwise provided by law” (31 U.S.C.
§ 1301(a)). A fiscal year appropriation may be obligated only to meet a legitimate, or bona fide,
need arising in, or in some cases arising prior to but continuing to exist in, the appropriation’s
period of availability (31 U.S.C. § 1502(a)). Unless otherwise specified in the appropriation, the
period of availability for most funds is the fiscal year for which the appropriation is made.

Bona fide needs may involve transactions that cover more than 1 fiscal year, depending on the
nature of the services involved: “The general rule is that the fiscal year appropriation current at
the time the contract is made is chargeable with payments under the contract, although
performance thereunder may extend into the ensuing fiscal year” (23 Comp. Gen. 370, 371
(1943)). 1 Multiyear contracting authority provided by statute is an exception to the bona fide
needs rule.

The Comptroller General has held that “the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services are
rendered, depends on whether the services are ‘severable’ or ‘entire’ [nonseverable].” 2 When
services are continuing and recurring, they are severable, and the agency may fund the contract
with separate subsequent fiscal year appropriations. A contract for a single outcome or effort is
chargeable to the fiscal year in which it is awarded, even though its performance may extend into
subsequent fiscal years. The Comptroller General has explicitly held that incremental funding
(i.e., other than full funding) of nonseverable service contracts violates the bona fide needs rule
without statutory authority (71 Comp. Gen. 428 (1992)).

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for

1
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-24.
2
    As cited in GAO-04-261SP, Appropriations Law, Vol. I, p. 5-23.


                                                         1
which the funds are made available. The Antideficiency Act prohibits an agency from obligating
or expending funds in advance of or in excess of an appropriation unless specifically authorized
by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires agencies to report violations
to the President and to Congress, with a copy to the Comptroller General (31 U.S.C. § 1351).
The Office of Management and Budget (OMB) Circular A-11, Preparation, Submission and
Execution of the Budget, part 4, § 145, prescribes the methodology for this reporting.

National Institute of Child Health and Human Development Contract Award

On November 1, 2002, NICHD awarded contract HHSN275-03-3345 3 (the Contract), totaling
$164.7 million, to Westat, Inc. (Westat), in Rockville, Maryland. The Contract required Westat
to establish an international pediatric and perinatal HIV studies network-coordinating center to
maintain, coordinate, and manage a network of clinical centers. These clinical centers, under
subcontracts with Westat, conducted research on the treatment, prevention, diagnosis,
epidemiology, and natural history of HIV infection and disease in pediatric, adolescent, and
maternal patient populations. We determined that, although the Contract statement of work may
contain some severable elements, on balance the Contract was nonseverable because it provided
for a single outcome (a comprehensive report and the related overall study data) at the
conclusion of the 5-year contract.

NICHD made five modifications to the Contract that increased the total amount of the Contract
by $16.2 million to $180.9 million. These modifications added additional work and used
appropriated funds available at the time of the modifications: $1.8 million in fiscal year 2003,
$1.2 million in fiscal year 2004, $4.5 million in fiscal year 2005, $4.9 million in fiscal year 2006,
and $3.8 million in fiscal year 2007. In addition, during fiscal year 2007, a no-cost modification
extended the Contract to February 29, 2008.

Departmental Review of National Institutes of Health Contracts

In 2008, HHS management formed an internal review group of program, contract, and financial
personnel called the “Tiger Team.” From November 2008 through February 2009, the Tiger
Team assessed 176 HHS contracts, including 21 NIH contracts. The Contract was 1 of the 21
NIH contracts assessed. For 17 of the 21 contracts, the Tiger Team identified instances in which
contract funding was not consistent with the current HHS Acquisition Regulation (HHSAR) or
appropriations law. 4 The Tiger Team report did not identify its concerns or quantify funding
errors by contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether NICHD funded the Contract in compliance with the
purpose, time, and amount requirements specified in appropriations statutes.


3
    The original contract number was N01-HD-3-3345.
4
    Funding Multiple Year Contracts; Tiger Team Summary Report, July 29, 2009.


                                                        2
Scope

We reviewed all obligations and payments made under the Contract during fiscal years 2003
through 2007. We did not review NICHD’s internal controls because our objective did not
require such a review.

We performed our fieldwork at NICHD in Bethesda, Maryland.

Methodology

To accomplish our objective, we:

   •    reviewed appropriations and acquisition laws and regulations and Contract requirements;

   •    reviewed the Tiger Team report;

   •    reviewed contract file documentation, including the statement of work, to determine the
        nature of the products or services to be provided; and

   •    analyzed funding documents and payment invoices to determine what appropriations
        were obligated, recorded, and expended.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

NICHD funded the Contract in compliance with the purpose requirements of appropriations
statutes. However, NICHD did not comply with the time and amount requirements specified in
the statutes. NICHD initially funded only $31.0 million of the $164.7 million contract obligation
with fiscal year 2003 appropriations. NICHD obligated a total of $133.7 million in violation of
the bona fide needs rule: $33.2 million of fiscal year 2004 appropriated funds, $33.3 million of
fiscal year 2005 appropriated funds, $33.5 million of fiscal year 2006 appropriated funds, and
$33.7 million of fiscal year 2007 appropriated funds. Because the Contract was for nonseverable
services, NICHD was required to record the full amount of the Contract using fiscal year 2003
appropriated funds. By not doing so, NICHD potentially violated the Antideficiency Act.

To remedy the bona fide needs rule violation, NICHD will need to deobligate the fiscal year
2004 through 2007 appropriations and would have needed to obligate $133.7 million
($164.7 million less $31.0 million) using fiscal year 2003 appropriations. However, because
2003 funds are no longer available to record the obligation, NICHD may be able to fund the
deficiency using $133.7 million of current fiscal year appropriations provided the conditions of
31 U.S.C. § 1553 are met. If NICHD does not have $133.7 million of current fiscal year
appropriations or the amount exceeds the lesser of 1 percent of the current appropriation or the
unexpended balance of the closed appropriation, NICHD will violate the Antideficiency Act.


                                                3
NICHD correctly funded five Contract modifications for additional work totaling $16.2 million
using appropriated funds available at the time it awarded the modifications.

FUNDING VIOLATIONS

Bona Fide Needs Rule Violation

Federal statutes limit the time for which an appropriation may be used. A fiscal year
appropriation may be obligated only to meet a legitimate, or bona fide, need arising in, or in
some cases arising prior to but continuing to exist in, the appropriation’s period of availability
(31 U.S.C. § 1502(a)). Bona fide needs may involve transactions that cover more than 1 fiscal
year, depending on the nature of the services involved. A contract for nonseverable services
must reflect a bona fide need identified in the fiscal year in which the agency awards the
contract, although the contract’s performance may extend into subsequent fiscal years. An
agency must fully fund nonseverable service contracts by obligating funds representing the entire
amount of the contract from appropriations available during the fiscal year in which the agency
awards the contract.

In fiscal year 2003, NICHD awarded the 5-year nonseverable service Contract and incurred an
obligation totaling $164.7 million based on an existing bona fide need. However, NICHD
recorded only $31.0 million of the obligation with fiscal year 2003 appropriations.
Subsequently, NICHD improperly recorded obligations of $33.2 million using fiscal year 2004
appropriated funds, $33.3 million using fiscal year 2005 appropriated funds, $33.5 million using
fiscal year 2006 appropriated funds, and $33.7 million using fiscal year 2007 appropriated funds.
However, NICHD did not have a bona fide need after fiscal year 2003. To remedy the violation,
NICHD will need to deobligate the $133.7 million improperly obligated after fiscal year 2003
and would have needed to obligate $133.7 million ($164.7 million less $31.0 million) using
fiscal year 2003 appropriations. However, because 2003 funds are no longer available to record
the obligation, NICHD may be able to fund the deficiency using $133.7 million of current fiscal
year appropriations provided the conditions of 31 U.S.C. § 1553 are met.

Potential Antideficiency Act Violation

Congress determines the amount of funding available to an agency by enacting appropriations to
cover programs, projects, purchases, and services needed by the agency during the period for
which the funds are made available. The Antideficiency Act prohibits the agency from
obligating or expending any amount in advance of or in excess of an appropriation unless
specifically authorized by law (31 U.S.C. § 1341(a)(1)). The Antideficiency Act requires
agencies to report violations to the President and to Congress, with a copy to the Comptroller
General (31 U.S.C. § 1351). OMB Circular A-11, part 4, § 145, prescribes the methodology for
this reporting.

Pursuant to 31 U.S.C. §§ 1551-1553, the account 5 closing statutes, after fiscal year
appropriations expire they remain available to record, adjust, and liquidate obligations properly

5
 Each agency has an account, maintained by the Department of the Treasury, that tracks the amount of funds
available for use. That account is credited with funds appropriated in the agency’s budget and reduced by
expenditures made by the agency to perform the tasks for which the credit was given.


                                                        4
chargeable to the appropriation account for up to 5 years. After 5 years, the appropriation
account is closed and the balance is canceled.

Pursuant to 31 U.S.C. § 1553(b), if fiscal year funds are no longer available because an account
has been closed, an agency may charge the obligation to the current-year appropriation account
available for the same purpose. The amount charged to the current fiscal year appropriation may
not exceed 1 percent of the current appropriation or the unexpended balance of the closed
appropriations.

Pursuant to 31 U.S.C. § 1554, after the close of each fiscal year, the head of each agency must
submit to the President and the Secretary of the Treasury a report on adjustments made to
appropriation accounts during the year, including any adjustments to obligations pursuant to
section 1553.

NICHD should have recorded the full fiscal year 2003 obligation for $164.7 million at the time
of the Contract award. Instead, NICHD recorded only $31.0 million of the obligation with fiscal
year 2003 appropriations. Because fiscal year 2003 funds are no longer available to record the
obligation, as noted above, NICHD may be able to fund the deficiency by using $133.7 million
of current fiscal year appropriations provided that the conditions of 31 U.S.C. § 1553 are met. If
NICHD does not have $133.7 million of current fiscal year appropriations available or the
amount exceeds the lesser of 1 percent of the current appropriation or the unexpended balance of
the closed appropriation, it will violate the Antideficiency Act.

CAUSES OF FUNDING VIOLATIONS

Generally, the Tiger Team report attributed funding violations to:

   •    widespread misunderstanding of appropriations laws because of conflicting HHSAR
        guidance over the past 25 years;

   •    the use of incremental funding in ways that were not consistent with the current HHSAR
        and appropriations law; and

   •    the need for additional training and a broader understanding of appropriations law among
        acquisition, budget, and program staff.

The Tiger Team did not identify the specific reasons for funding violations for each contract
reviewed. HHS management corrected the conflicting guidance in HHSAR 332.702(a) and
reissued it on December 20, 2006, more than 4 years after NICHD awarded the Contract.

RECOMMENDATIONS

We recommend that NICHD:

    •   deobligate $33.2 million of fiscal year 2004 funds and return the canceled funds to the
        Treasury;




                                                5
    •   deobligate $33.3 million of fiscal year 2005 funds and return the canceled funds to the
        Treasury;

    •   deobligate $33.5 million of fiscal year 2006 funds;

    •   deobligate $33.7 million of fiscal year 2007 funds;

    •   record the remaining $133.7 million of the $164.7 million contract obligation against
        current fiscal year appropriations;

    •   report an Antideficiency Act violation if sufficient current year appropriations are not
        available; and

    •   report, in accordance with 31 U.S.C. § 1554, the adjustment to the Contract using current
        fiscal year appropriations.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH agreed that a bona fide needs violation had
occurred and admitted violating the Antideficiency Act. NIH did not agree with our
characterization of the Contract as a nonseverable service contract or the nature of the bona fide
needs violation and, therefore, did not concur with the audit recommendations to correct the
funding of the Contract.

Specifically, NIH stated that the Contract was for severable services, and that it violated the bona
fide needs rule because it obligated the Government to acquire severable services in advance of
appropriations that could be used for such services. However, NIH said that HHS had reported
the Antideficiency Act violation as required by 31 U.S.C. § 1351 and that the Contract had been
completed and was in the process of being administratively closed. NIH did not say that it had
made or planned to make any corrections to the Contract funding.

NIH’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

While the statement of work may contain severable elements, we maintain that, on balance, the
Contract is nonseverable. We determined the Contract was nonseverable because it was focused
on an end product—the comprehensive report and the related item, “data tapes,” containing the
study data. Further, NIH stated that the Contract was for severable services but admitted that it
did not properly fund the obligation under any of the allowable funding methods for severable
services contracts.

NIH admitted violating the bona fide needs rule and the Antideficiency Act and stated that HHS
has reported an Antideficiency Act violation. However, NIH failed to identify any actions, taken
or planned, to correct the improper funding of the Contract as either a nonseverable or severable
services contract. Until NIH takes corrective action, HHS cannot report the correct amount of its
Antideficiency Act violation.



                                                 6
We have modified our recommendations to identify by fiscal year the adjustments necessary to
properly fund a nonseverable service contract. As noted in the modified recommendations,
NICHD must record the $133.7 million against current fiscal year funds (provided the amount
does not exceed the lesser of 1 percent of the current appropriation or the unexpended balance of
the closed appropriation) and must report the adjustment pursuant to 31 U.S.C. § 1554.




                                                7
APPENDIX
                                                                                             Page 1 of3
           APPENDIX: NATIONAL INSTITUTES OF HEALTH COMMENTS




        DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                               Public Health Service



                                                                               National Institutes of Health
                                                                               Bethesda, Maryland 20892




 AUG      5 2011



TO: 	        Daniel R. Levinson
             Inspector General, HHS

FROM: 	      Director, National Institutes of Health

SUBJECT: 	 Response to 010 Draft Report, Appropriations Funding/or Eunice Kennedy
           Shriver NationallnstitUle o/Child Health and Human Development Contract
           HHSN275-03 -3345 With Westat (A-03-10-03106)


Attached are the National Institutes of Health's comments on the Office of Inspector General's
draft report entitled, Appropriations Fundingfor Eunice Kennedy Shriver National Institute of
Child Health and Human Development Contract HHSN275-03-3345 With Weslat
(A-03-IO-03J06).

We appreciate the opportunity to review and comment on this important topic. We have
provided general comments that address the findings and recommendations in the draft report.
Should you have questions or concerns regarding our comments, please contact Meredith Stein
in the Office of Management Assessment at 301-402-8482.


                                             \~ (.)d'~
                                     f0-     Francis S. Collins, M.D., Ph.D.

Attachment
                                                                                                Page 2 of3




GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES OFFICE OF INSPECTOR GENERAL DRAFT REPORT ENTITLED:
APPROPRIA nONS FUNDING FOR EUNICE KENNED Y SHRIVER NATIONAL
INSTITUTE OF CHILD HEALTH AND HUMAN DEVELOPMENT CONTRACT
HHSN275-03-3345 WITH WESTAT (A-03-IO-03106)


The National Institutes of Health (NIH) appreciates the review conducted by the Office of
Inspector General (OIG) and the opportunity to provide clarification on this draft report. NIH
respectfully submits the following comments.

Summary ofOIG Findings:

    • 	 The Eunice Kennedy Shriver National Institute of Child Health and Human Development
        (NICHD) did not comply with the time requirements and may not have complied with the
        amount requirements specified in Federal appropriations statutes. NICHD awarded
        contract HHSN275-03-3345 on November I, 2002. NICHD initially funded only $31
        million of the $164.7 million contract obligation with fiscal year 2003 appropriations.
        NICHD obligated a total of$133.7 million in violation of the bonafide needs rule as
        follows:

           o	   $33.2   million of fiscal   year 2004 appropriated   funds;
           o	   $33.3   million of fiscal   year 2005 appropriated   funds;
           o	   $33:5   million of fiscal   year 2006 appropriated   funds; and
           o	   $33.7   million of fiscal   year 2007 appropriated   funds.

    • 	 Because the contract \vas for nonseverable services, NICHD was required to record the
        full amount of the contract using fiscal year 2003 appropriated funds. By not recording
        the full obligation using fiscal year 2003 appropriations, NICHD potentially violated the
        Antideficiency Act.

Summary of OIG Recommendations:

    • 	 NICHD should record the remaining $133.7 million of the $164.7 million contract
        obligation against fiscal year 2003 funds and deobligate funds appropriated for years
        other than fiscal year 2003.

    • 	 NICHD must report an Antideficiency Act violation jf fiscal year 2003 funds are not
        available.

NIH Comments:

NIH does not concur with OIG's findings that the contract is for the performance of nonseverable
services and, therefore, does not concur with the recommendations based upon those findings.

NICHD Contract HHSN27S-03-3345 was for continuous and recurring clinical trial support
services that NICHD needed on a year-to-year basis. The NICHD contract was a multiple year
contract covering the needs of more than one fiscal year. More specifically, it was a five-year
                                                                                                 Page 3 of3



GENERAL COMMENTS ON THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES OFFICE OF INSPECTOR GENERAL DRAFT REPORT ENTITLED:
APPROPRlA TlONS FUNDING FOR EUNICE KENNED Y SHRIVER NATIONAL
INSTITUTE OF CHILD HEALTH AND HUMAN DEVELOPMENT CONTRACT
HHSN275-03-3345 WITH WESTAT (A-03-10-03106)


contract for the performance of severable services that NICHD needed during the year in which
the contract was awarded and in each of the subsequent fiscal years covered by the contract. The
NICHD appropriation that was available for obligation at the time of contract award was an
annual appropriation and propedy available for obligation only for the bonafide needs or that
fiscal year. The NICHD appropriations for those services needed in each of the subsequent four
years of the contract had not yet been made when the contract was awarded. Consequently,
NICHD violated the Antideficiency Act when it awarded a contract that obligated NICHD
appropriations not yet made, as prohibited by 31 V.S.c. § 1341(a)(I)(B).

NIH concurs that a violation of the Antideficiency Act occurred with respect to this contract.
The Department of Health and Human Services (HHS) has reported the violation as required by
31 U.S.c. § 1351 based on its finding that NIH awarded a multiple year contract for severable
services and legally obligated the government to pay for services needed in future years before
NIH had received an appropriation to pay for those future services. The HHS report has
identified the proposed actions taken to correct the systemic problems within HHS which led to
this and other violations. It is significant to note that this contract has been completed and is in
the process of being administratively closed. Final payment was made on April 29, 2008 .




                                                                                                       2

